No. 21-148
IN THE

Supreme Court of the United States
CALIFORNIA RESTAURANT
ASSOCIATION, INC.,

Petitioner,
v.
SUPERIOR COURT OF LOS
ANGELES COUNTY, COUNTY OF
LOS ANGELES DEPARTMENT OF
PUBLIC HEALTH, and DR. BARBARA
FERRER, in her official capacity as
Director of Public Health, County of Los
Angeles,
Respondents.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE COURT OF APPEAL OF THE STATE OF
CALIFORNIA, SECOND APPELLATE DISTRICT
SUPPLEMENTAL BRIEF
BROWNE GEORGE ROSS BROWNE GEORGE ROSS
O’BRIEN ANNAGUEY &
O’BRIEN ANNAGUEY &
ELLIS LLP
ELLIS LLP
Dennis S. Ellis
Carl Alan Roth
Counsel of Record
Noah S. Helpern
Eric M. George
Richard A. Schwartz
Katherine F. Murray
801 S. Figueroa Street,
Ryan Q. Keech
Suite 2000
Lori Sambol Brody
Los Angeles, CA 90017
2121 Avenue of the
T: (213) 725-9800
Stars, Suite 2800
Los Angeles, CA 90067
T: (310) 274-7100
dellis@bgrfirm.com
Attorneys for Petitioner, California Restaurant
Association, Inc.

i
TABLE OF CONTENTS
Page
TABLE OF CONTENTS ............................................. i
TABLE OF AUTHORITIES ...................................... ii
SUPPLEMENTAL BRIEF PURSUANT TO
RULE 15.8 ........................................................1
THE

TRIAL
COURT
BELOW
HAS
INTERPRETED THE COURT OF
APPEAL’S OPINION AS ALLOWING
GOVERNMENT AGENCY ACTION
BASED SOLELY ON “RATIONAL
SPECULATION” ..............................................1

TAKINGS ISSUES ARE ALL THE MORE
HEIGHTENED NOW ......................................4
CONCLUSION ............................................................6
SUPPLEMENTAL APPENDIX
Appendix A, Notice of Ruling on California
Restaurant Association, Inc.’s Motion to
Enforce Deposition Order, Filed August
26, 2021 ...........................................................1a

ii
TABLE OF AUTHORITIES
Page(s)
FEDERAL CASES
Alabama Ass’n of Realtors v. Dep’t of Health
& Human Svcs.,
594 U.S. ___ (2021) ................................................3
Brach v. Newsom,
6 F.4th 904 (9th Cir. 2021) ....................................3
E. Enters. v. Apfel,
524 U.S. 498 (1998) ................................................5
Motor Vehicle Mfrs. Ass’n of the U.S. v.
State Farm Mut. Auto. Ins. Co.,
463 U.S. 29 (1983) ..................................................2
Palazzolo v. Rhode Island,
533 U.S. 606 (2001) ................................................5
Pa. Coal Co. v. Mahon,
260 U.S. 393 (1922) ............................................4, 5
St. Joseph Abbey v. Castille,
712 F.3d 215 (5th Cir. 2013) .................................2
RULES
Sup. Ct. R. 15.8 ...........................................................1

iii
OTHER AUTHORITIES
Kristine de Leon, Pandemic relief fund
granted nearly $2 billion to L.A.-area
restaurants, but many missed out,
KTLA5, https://ktla.com/news/localnews/pandemic-relief-fund-forrestaurants-granted-nearly-2-billion-tol-a-area-food-businesses-but-many-stillmiss-out/ (July 27, 2021) .......................................4
Small Business Administration, Restaurant
Revitalization Fund Program Details,
https://www.sba.gov/fundingprograms/loans/covid-19-reliefoptions/restaurant-revitalizationfund#section-header-1 (last accessed
Sept. 4, 2021) .........................................................4
Stacy Cowley, Restaurant Grant Program
Ends in a Cloud of Errors and
Confusion, N.Y. Times,
https://www.nytimes.com/2021/07/01/bus
iness/restaurant-revitalization-fundsba.html (July 1, 2021) ..........................................4

1
SUPPLEMENTAL BRIEF PURSUANT TO
RULE 15.8
California Restaurant Association, Inc.
(“CRA”) respectfully submits this supplemental brief
pursuant to this Court’s Rule 15.8 in connection with
its pending Petition for a Writ of Certiorari (the
“Petition”) in order to draw this Court’s attention to
new decisions by the trial court below and intervening
matters not available at the time CRA filed its
Petition.
THE TRIAL COURT BELOW HAS
INTERPRETED THE COURT OF APPEAL’S
OPINION AS ALLOWING GOVERNMENT
AGENCY ACTION BASED SOLELY ON
“RATIONAL SPECULATION”
The trial court below has recently concluded
that even discovery may not proceed while the ruling
by the Court of Appeals stands, because the County
need not justify its actions at any time, whether back
in November 2020 when it issued the November 25,
2020 order closing all on-premises dining in Los
Angeles County (the “Restaurant Closure Order”),
now, or in the future should the County decide to
reinstate a complete ban of on-premises dining. See
Supplemental Appendix (“Supp. App.”) 17a-18a.
Specifically, on August 26, 2021, the trial court denied
CRA’s attempts to compel the depositions of the
County’s medical officers. Supp. App. 1a-2a. The trial
court interpreted the Court of Appeal’s decision as
authorizing County officials to regulate an industry
out of existence on the basis of “rational speculation,”

2
without even having to articulate the basis for those
decisions to the public. Pet. at 11-12. In other words,
in an action challenging whether the County had any
scientific underpinning to promulgate the County’s
Restaurant Closure Order, the trial court held that it
cannot allow CRA to take depositions of the officials
who purportedly had a non-arbitrary basis to
conclude that shutting down all outdoor dining was
“necessary” to combat the spread of COVID-19. That
holding contradicts well-established federal law that
litigants are entitled to offer factual showings
rebutting a government actor’s purportedly rational
basis. See, e.g., St. Joseph Abbey v. Castille, 712 F.3d
215, 223 (5th Cir. 2013) (“Although rational basis
review places no affirmative evidentiary burden on
the government, plaintiffs may nonetheless negate a
seemingly plausible basis for the law by adducing
evidence of irrationality.”) (emphasis added).
As CRA pointed out in its Petition, the Court of
Appeal’s logic, as accepted by the trial court, upends
decades of case law that holds that government
agencies act arbitrarily and capriciously when they
fail to consider “important aspect[s] of the problem”
they are trying to solve, see Motor Vehicle Mfrs. Ass’n
of the U.S. v. State Farm Mut. Auto. Ins. Co., 463 U.S.
29, 43 (1983), by insulating those government actors
from any judicial review of the considerations that
contributed to their decisions. See Pet. at 18-22.
The Court of Appeal decision has also had a
chilling effect on lower court review of the County’s
actions now and in the future, as the trial court not
only refused to allow discovery to proceed, it sua

3
sponte ordered that CRA’s claims for mandamus and
declaratory relief must be dismissed without further
briefing, Supp. App. 24a, even though the Court of
Appeal’s grant of a writ of mandate at most vacated a
preliminary injunction on an incomplete record,
which is not a ruling on the merits of the underlying
action as a matter of law. See Dep’t of Fair Emp. &
Hous. v. Super. Ct., 54 Cal. App. 5th 356, 390 (2020)
(“[A] court is typically ‘without jurisdiction to
determine the merits upon the hearing of a motion for
a temporary injunction and the orders purporting to
do so are void.’”) (quoting Anderson v. Joseph, 146 Cal.
App. 2d 450, 454 (1956)).
By denying CRA the opportunity to brief the
disposition of its claims, the trial court improperly
refused to allow CRA to point out why the recent
decisions in Alabama Association of Realtors v.
Department of Health and Human Services, 594 U.S.
___ (2021) (“Ala. Ass’n”) and Brach v. Newsom, 6 F.4th
904 (9th Cir. 2021) foreclose the conclusion of the
Court of Appeal.
These more recent decisions
demonstrate that the courts must police the limits of
what measures are “necessary” to combat the spread
of disease in order to limit governmental overreach
into private conduct, including by analyzing whether
or not a given measure is justified by its practical
impact on the spread of disease. See Ala. Ass’n, slip
op. at 6-7 (rejecting broad claim of authority to take
whatever measures the Centers for Disease Control
and Prevention deem “necessary”).
Trial courts around the country will almost
certainly continue to abdicate their judicial

4
responsibility unless this Court grants a writ of
certiorari and reverses the Court of Appeal’s decision.
TAKINGS ISSUES ARE ALL THE MORE
HEIGHTENED NOW
CRA’s argument in its Petition that the
County’s actions have implications for the Takings
Clause has also recently been confirmed by the
creation and rapid depletion of the United States
Small Business Administration (“SBA”) Restaurant
Revitalization Fund (the “Fund”).
The Fund,
established under the American Rescue Plan Act,
Pub. L. No. 117-2 (2021), provided eligible
restaurants up to $10 Million in emergency
assistance, which would not have to be repaid. See
Small
Business
Administration,
Restaurant
Revitalization
Fund
Program
Details,
https://www.sba.gov/funding-programs/loans/covid19-relief-options/restaurant-revitalizationfund#section-header-1 (last accessed Sept. 4, 2021).
The Fund closed after providing $28.6 billion in
grants to 105,000 of its 370,000 applicants. Stacy
Cowley, Restaurant Grant Program Ends in a Cloud
of
Errors
and
Confusion,
N.Y.
Times,
https://www.nytimes.com/2021/07/01/business/restau
rant-revitalization-fund-sba.html (July 1, 2021).
Both the existence of the SBA Fund and its
rapid depletion support CRA’s contention that, if left
intact, the Court of Appeal’s decision will have
implications for Takings Clause jurisprudence. See
Pet. at 28-32. When, as here, a “regulation goes too
far it will be recognized as a taking.” Pa. Coal Co. v.

5
Mahon, 260 U.S. 393, 415 (1922). With respect to the
County’s restaurant closure order, the devastating
economic impact, see E. Enters. v. Apfel, 524 U.S. 498,
529 (1998), and interference with reasonable
investment-backed expectations, see Palazzolo v.
Rhode Island, 533 U.S. 606, 627 (2001), is apparent
from the SBA’s recognition of the restaurant
industry’s overwhelming need for emergency relief.
In addition to the dozens of declarations from
restauranteurs that CRA introduced showing the
ruinous economic impact of the County’s orders in Los
Angeles County, see Pet. at 30, there is now clear and
unambiguous evidence of the impact of COVID-19
restrictions on restaurants across the country.
Hundreds of thousands of restaurants sought relief
from the SBA Fund, including many within Los
Angeles County. See Kristine de Leon, Pandemic
relief fund granted nearly $2 billion to L.A.-area
restaurants, but many missed out, KTLA5,
https://ktla.com/news/local-news/pandemic-relieffund-for-restaurants-granted-nearly-2-billion-to-l-aarea-food-businesses-but-many-still-miss-out/ (July
27, 2021). It is now even clearer that COVID-19
regulations have had devastating economic impacts.
These impacts have interfered with reasonable,
investment backed expectations, including, for
example, restaurants that purchased specialized
equipment and implemented outdoor dining
procedures. As a result, the Court of Appeal’s flawed
opinion has clear implications on Takings Clause
jurisprudence in the context of regulations
purportedly justified by COVID-19.

6
Without guidance from this Court, lower courts
may be willing to hold that overly burdensome
government restrictions are permissible government
regulations and not takings, so long as the regulations
pay lip service to the exigencies created by COVID-19.
See Pet. at 32. Unless this Court grants certiorari, it
is almost certain that the Court of Appeal’s opinion
will create significant doubt about what ought to be
straightforward
applications
of
Takings
jurisprudence.
CONCLUSION
For the reasons set forth above and in CRA’s
Petition, this Court should issue a writ of certiorari to
review the decision of the California Court of Appeal
and, ultimately, reverse that decision and render a
decision in favor of CRA.
Dated: September 7, 2021

7
Respectfully submitted,
BROWNE GEORGE ROSS BROWNE GEORGE ROSS
O’BRIEN ANNAGUEY &
O’BRIEN ANNAGUEY &
ELLIS LLP
ELLIS LLP
Dennis S. Ellis
Carl Alan Roth
Counsel of Record
Noah S. Helpern
Eric M. George
Richard A. Schwartz
Katherine F. Murray
801 S. Figueroa Street
Ryan Q. Keech
Suite 2000
Lori Sambol Brody
Los Angeles, CA 90017
2121 Avenue of the Stars T: (213) 725-9800
Suite 2800
Los Angeles, CA 90067
T: (310) 274-7100
dellis@bgrfirm.com
Attorneys for Petitioner, California Restaurant
Association, Inc.

1a
SUPPLEMENTAL APPENDIX A — NOTICE OF
RULING ON CALIFORNIA RESTAURANT
ASSOCIATION, INC.’S MOTION TO ENFORCE
DEPOSITION ORDER, FILED AUGUST 26,
2021
TO THE COURT AND TO ALL PARTIES AND
THEIR COUNSEL OF RECORD:
PLEASE TAKE NOTICE that the motion of
Petitioner and Plaintiff California Restaurant
Association, Inc. (“CRA”), seeking an order compelling
depositions and enforcing the Court’s order dated
February 11, 2021 (the “Motion”), came on regularly
for hearing in Department 85 of the above-referenced
Court, the honorable James C. Chalfant, judge
presiding. Dennis S. Ellis, Esq. and Richard A.
Schwartz of Browne George Ross O’Brien Annaguey
& Ellis LLP appeared on behalf of CRA, and Amnon
Z. Siegel of Miller Barondess LLP appeared on behalf
of Respondents and Defendants County of Los
Angeles Department of Public Health and Barbara
Ferrer. After reviewing the papers submitted by the
parties, and hearing the arguments of counsel, the
Court ruled in accordance with its tentative ruling,
making the following rulings:
1.
The Court denied the Motion, and issued
a written order, a true and correct copy of which is
attached hereto as Exhibit A;
2.
The Court determined that the Court of
Appeal decision in County of Los Angeles Department
of Public Health v. Superior Court, 61 Cal. App. 5th

2a
478 (2021) was dispositive as to the Restaurant
Closure Order challenged by CRA’s mandamus and
declaratory relief claims;
3.
The Court ordered the dismissal of the
mandamus and declaratory relief claims to occur
upon the resolution of the remaining claim under 42
U.S.C. § 1983 by an independent calendar court; and
4.
The Court ordered the matter
transferred to Department One for review and
reassignment to an independent calendar court for
the resolution of the 42 U.S.C. § 1983 claim.
The Court prepared a minute order containing
these rulings. A true and correct copy of the minute
order is attached hereto as Exhibit B.

DATED: August 30, 2021
BROWNE GEORGE ROSS
O’BRIEN ANNAGUEY & ELLIS LLP
Dennis S. Ellis
Katherine F. Murray
Carl Alan Roth
Richard A. Schwartz
By: Dennis S. Ellis
Attorneys for Petitioner-Plaintiff California
Restaurant Association, Inc.

3a
Exhibit “A”
California Restaurant Association, Inc. v.
County of Los Angeles Department of Public Health,
et al, 20STCP03881
Decision on Motion for Order to Enforce
Deposition: Denied
Petitioner California Restaurant Association,
Inc. (“CRA”) moves for an order enforcing the court’s
February 11, 2021 ruling on Defendants’ motion for a
protective order (the “Ruling”) allowing it to take the
depositions of Dr. Barbara Ferrer (“Ferrer”), Dr.
Muntu Davis (“Davis”), Dr. Marianne Gausche-Hill
(“Hill”), and Dr. Jeffrey D. Gunzenhauser
(“Gunzenhauser”) (collectively “Deponents”).
The court has read and considered the moving
papers, opposition, and reply, and renders the
following tentative decision.
A. Statement of the Case
1. Petition
Petitioner CRA commenced this action on
November 24, 2020. The operative pleading is the
Second Amended Petition (“SAP”) filed on December
17, 2020 against Respondents County of Los Angeles
Department
of
Public
Health
(“DPH”
or
“Department”) and Ferrer, in her capacity as Director
of the Department, alleging causes of action for
administrative and traditional mandamus and

4a
declaratory relief and seeks the remedy of injunctive
relief. The verified SAP alleges in pertinent part as
follows.
The Department has issued a series of health
orders in an effort to halt the spread of COVID.1 The
Department’s Health Order dated November 19, 2020
(“November 19 Order”) issued restrictions that
outdoor dining and wine service seating must be
reduced by 50%, or tables must be repositioned so that
they are at least eight feet apart.
On November 22, 2020, the Department
announced that it was modifying the November 19
Order to eliminate outdoor dining and drinking
entirely at restaurants, bars, breweries, and wineries
by issuing the Restaurant Closure Order (sometimes,
the “Order”). The Restaurant Closure Order took
effect on November 25, 2020.
The Department’s own data provide no support
for the planned shutdown of outdoor restaurant
operations.
The data tracks all non-residential
settings at which three or more laboratory confirmed
COVID cases have been identified. Of the 204
locations on the list, fewer than 10% are restaurants.
Of the 2,257 cases identified on the list, fewer than
5% originate from restaurants.
On November 17, 2020, the Department held a
hearing at which COVID and restaurant closures
For convenience, the court will refer to COVID and SARS-CoV2 as “COVID”.
1

5a
were discussed. The Department scheduled another
hearing for November 24, 2020. On November 23,
2020, CRA sent a notice and objection letter to the
Department asking it to cancel the proposed
modification to the November 19 Order on the
grounds that the spread of COVID is due primarily to
people in close proximity at private gatherings and
other sources, not from restaurants.
CRA
contends
that
the
Department
prejudicially abused its discretion by having hearings
at which it failed to take and consider relevant advice.
The Department made a decision to close restaurant
dining that is not realistically designed to halt the
spread of COVID.
The Department proceeded
without, and in excess of, its discretion, failed to give
CRA a fair hearing, and prejudicially abused its
discretion. The Restaurant Closure Order is not
supported by any findings or the evidence.
The Department has not conducted any review
of the potential impact or effectiveness of the
Restaurant Closure Order, or if they have, they have
not disclosed or articulated any such study to the
public. Nothing in the publicly-available materials
indicates that Respondents conducted a careful study
of the potential harm or impact of the Order.
In addition to the lack of scientific evidence
establishing the public health benefits of prohibiting
outdoor dining on a county-wide basis, the
Department has provided no indication that it has
estimated or otherwise taken into account any of the
economic, social and public health costs of restricting

6a
outdoor dining. Basic standards of public health
policy design require a comparison of both costs and
benefits of a policy to justify it from a scientific and
ethical point of view. The public record shows no
provision of data whatsoever regarding the very
substantial costs that arise from prohibitions such as
that imposed by Los Angeles County.
There is no rational and legitimate medical
basis supporting the breadth and scope of the
Department’s total shutdown of outdoor dining.
2. Course of Proceedings
On November 24, 2020, the court denied CRA’s
ex parte application to stay the Restaurant Closure
Order for failure to present sufficient evidence to
make a prima facie case. The court permitted CRA to
renew its application as one for a temporary
restraining order (“TRO”) and OSC re: preliminary
injunction (“OSC”) if it presented evidence that the
restrictions are unsupported and of irreparable harm.
On December 2, 2020, the court denied CRA’s
ex parte application for a TRO and set an OSC for the
instant date.
The independent calendar court assigned to
Case No. 20STCV45134 found that it and Case No.
20STCP03881 are not related under CRC 3.300(a)
and declined to relate them. This court consolidated
both cases only for hearing on the OSCs, designating
20STCP03881 as the lead case for the hearing.

7a
On December 8, 2020, the court granted in part
CRA’s application for a preliminary injunction. The
court enjoined Respondents from extending the
Restaurant Closure Order past December 16, 2020
until it conducted an appropriate risk-benefit
analysis.
On December 18, 2020, the Court of Appeal,
Second Appellate District, Division Four issued a
temporary stay of the preliminary injunction and
issued an order to show cause why a preemptory writ
of mandate should not issue ordering the court to
vacate the preliminary injunction.
On February 11, 2021, the court conditionally
denied Respondents’ motion for a protective order
requiring Ferrer, Davis, Hill, and Gunzenhauser to
submit to a deposition unless the appellate court did
not uphold the Restaurant Closure Order as a matter
of law.
On March 1, 2021, the appellate court reversed
the December 8, 2020 preliminary injunction.
B. Applicable Law
Every court shall have the power to compel
obedience to its judgments, orders, and process, and
to the orders of a judge out of court, in an action or
proceeding pending therein. CCP §128(a)(4). This
enforcement power is also an inherent power of the
court. See Security Trust & Say. Bank v. Southern
Pac. R. Co., (1935) 6 Cal.App.2d 585, 588 (“It is a wellestablished principle of law that a court possesses
power to enforce its judgments.”); Machado v. Myers,

8a
(2019) 39 Cal.App.5th 779, 796 n.13, 252 (“Trial
courts have the inherent authority to enforce their
rulings.”)
C. Statement of Facts
1. Petitioner’s Evidence2
On February 11, 2021, the court held a hearing
on Respondents’ motion for a protective order seeking
to bar the depositions of County officials Ferrer,
Davis, Gausche-Hill, and Gunzenhauser. Schwartz
Decl., Ex. 1.
The court conditionally denied
Respondents’ motion, stating that: (1) the depositions
were not precluded simply because CRA’s claims may
require rational basis review; (2) both prongs of the
apex deposition rule were satisfied as to each
deponent; and (3) the alleged burden on deponents
was insufficient to justify a protective order. Id., pp.
6, 8-10.
Because Respondents’ petition for writ of
mandate was pending in the Court of Appeal at the
In support of its reply, the CRA requests judicial notice of its
Petition for a Writ of Certiorari (“Certiorari Petition”), filed in
the Supreme Court of the United States on July 20, 2021, and
placed on the docket of the Court as Case No. 21- 148 (Ex. 1).
The existence of Exhibit 1, but not the truth of their contents, is
judicially noticed. Evid. Code §452(d); Sosinsky v. Grant, (1992)
6 Cal.App.4th 1548, 1551 (judicial notice of findings in court
documents may not be judicially noticed). See Fontenot v. Wells
Fargo Bank, N.A., (2011) 198 Cal.App.4th 256, 264-65 (judicial
notice of the existence and recordation, as well as the parties,
dates, and legal consequences of, recorded documents may be
judicially noticed).
2

9a
time the motion for protective order was heard, the
court recognized the possibility that Respondents
could “prevail on appeal as a matter of law — meaning
that the appellate court will decide that the
Restaurant Closure Order had a rational basis as a
matter of law.” Id., p.7. The court conditionally
ordered the depositions to proceed only if the
appellate court’s decision does not uphold the Order
as a matter of law. Id., p. 9.
On March 1, 2021, the Court of Appeal issued
an opinion (“Appeal Decision”) granting Respondents’
writ petition and vacating the court’s preliminary
injunction. Schwartz Decl., Ex. 2. Shortly after the
Appeal Decision was issued, CRA contacted
Respondents to arrange for the depositions of the
Deponents. Schwartz Decl., Exs. 3, 4. Respondents
refused to produce the Deponents for deposition,
claiming that the Appeal Decision forecloses any
further proceedings in this case. Schwartz Decl., Ex.
5.
2. Respondents’ Evidence3
On December 21, 2020, CRA noticed the
following depositions: Davis, the County’s Health
Respondents request judicial notice of (1) a November 22, 2020
LA County Public Health Press Release, “Public Health to
Modify Health Officer Order to Restrict Dining at Restaurants,
Breweries, Wineries and Bars Amid Surge in Cases — 5-Day
Average of New Cases is 4,097,” accessed on January 29, 2021
(Ex. 1); (2) a Los Angeles County Department of Public Health
Press Release, dated January 29, 2021, titled "Outdoor Dining
Service Returns with New Mandatory Safety Measures 228 New
Deaths and 7,112 New Confirmed Cases of COVID-19 in Los
3

10a
Officer; Ferrer, the Director of DPH; Gausche-Hill,
the Medical Director of the County’s Emergency
Medical Services Agency; and Gunzenhauser, the
Medical Director and Director of the Disease Control
Bureau of DPH. Tokoro Decl., ¶5, Exs. C-F.
CRA’s counsel did not confer with the County’s
counsel before unilaterally selecting the December 31,
2020 date for the depositions. Tokoro Decl., ¶6. The
deposition notices were the first discovery served by
CRA in the action. Tokoro Decl., ¶7.
The County moved for a protective order to bar
CRA from taking the depositions. On February 11,
2021, the court held a hearing on the County’s motion
Angeles County (Ex. 2); (3) a Los Angeles County Department of
Public Health Press Release, dated June 21, 2021, titled "As
COVID-19 Rates Decrease Overall, More than 10 Million
Vaccine Doses Administered in L.A. County - 3 New Deaths and
124 New Confirmed Cases of COVID-19 in Los Angeles County
(Ex. 3); (4) a Los Angeles County Department of Public Health
Press Release, dated August 10, 2021, titled "Vaccinated People
Remain Well Protected from Severe COVID-19 Illness; Los
Angeles County to Align with State on Vaccine Mandate for
Healthcare Workers - 22 New Deaths and 2,622 New Confirmed
Cases of COVID-19 in Los Angeles County (Ex. 4); (5) the Los
Angeles County Department of Public Health's COVID-19
Vaccine Dashboard — COVID-19 Vaccinations in LA County,
updated as of August 9, 2021 (Ex. 5); (6) the Los Angeles County
Department of Public Health's Order of the Health Officer,
issued July 30, 2021 (Ex. 6); and (7) a federal appellate "Order
of Court" in Calvary Chapel of Bangor v. Mills, entered July 19,
2021 (Ex. 7).
The request is granted as to Exhibits 6 and 7. Evid. Code
§452(c), (d). The remaining exhibits (Exs. 1-5) are not official acts
subject to judicial notice and the requests are denied.

11a
for protective order. Tokoro Decl., ¶8, Ex. G. At the
conclusion of the hearing, the Court adopted its
tentative order that conditionally denied the County’s
motion for protective order. Tokoro Decl., ¶9, Ex. H.
CRA’s petition for rehearing was denied by the
Court of Appeal.
Tokoro Decl. Ex. L.
CRA’s
subsequent petition for review was denied by the
California Supreme Court. Tokoro Decl., Ex. M.
D. Analysis
Petitioner CRA moves for an order enforcing
the Ruling allowing it to take the depositions of the
Deponents. The County opposes.
1. The Appeal Decision
In the Appeal Decision, the appellate court
relied on the highly deferential standard of review for
legislative acts in epidemic emergencies set out by the
United States Supreme Court in Jacobsen v.
Massachusetts, (“Jacobsen”) (1905) 197 U.S. 11, 39
that government action to protect public health will
be upheld unless it has “no real or substantial
relation” to the object of public health or is “a plain,
palpable invasion” of rights. 61 Cal.App.5th at 488.
The appellate court acknowledged that the Jacobsen
test predates the tiers of scrutiny used in modern
constitutional law and it has been criticized in recent
Supreme Court opinions. Id. Nonetheless, it has not
been overruled and the Appeal Decision relied on it
and a more recent dissenting opinion by Justice
Kavanaugh to conclude that a standard of “extreme
deference” applies. Id. at 488-89.

12a
The Appeal Decision described CRA’s claim as
a substantive due process claim subject to a rational
basis test and noted that the Restaurant Closure
Order was a quasi-legislative act which must be
upheld unless arbitrary and capricious, or entirely
lacking in evidentiary support, which is identical to
the rational basis test. Id. at 490. In reviewing a
quasi-legislative act, the court cannot reweight the
evidence. Id. (citation omitted). The appellate court
described the core issue as whether the County’s
temporary suspension of outdoor dining is rationally
related to a legitimate state interest of limiting the
spread of COVID-19. Id. at 491.
The Appeal Decision reversed this court’s
conclusion that the Department’s generalized
evidence of a COVID-19 risk in outdoor dining was
arbitrary because DPH failed to perform the required
risk-benefit analysis. Id. at 493. The appellate court
described a mandate for a “nebulous risk-benefit
requirement” as inconsistent with the trial court’s
role. Ibid. The trial court’s review begins and ends
with a determination whether the Restaurant
Closure Order is arbitrary, capricious, or entirely
lacking in evidentiary support and it is none of these.
Id. The court concluded that “there is no likelihood
the Restauranteurs will prevail on the merits of their
claims”. Id. at 487. It declined to second-guess public
health actions “in an `area[ ] fraught with medical and
scientific uncertainties.’“ (Id. at 495 (citation
omitted))
and
held
that
“[b]ecause
the
Restauranteurs failed to satisfy their burden of
demonstrating the [Restaurant Closure] Order is
arbitrary, capricious, or without rational basis, we

13a
conclude they cannot ultimately succeed on the merits
of their claims.” Id. at 495.
Although the court is not required to agree with
the Appeal Decision, it is bound by it under the
doctrine of stare decisis. See Auto Equity Sales, Inc.
v. Superior Court, (1962) 57 Ca1.2d 450, 455
(decisions of every division of the district courts of
appeal are binding upon all superior courts of
California).
2. Whether the Appeal Decision Precludes
the Depositions
CRA argues that the Appeal Decision does not
preclude it from taking the depositions the court’s
Ruling permitted because the Appeal Decision did not
uphold the Restaurant Closure Order as a matter of
law. Rather, the Appeal Decision only addressed the
single issue whether the trial court abused its
discretion in granting a preliminary injunction
enjoining enforcement of the Order. Mot. at 6; Reply
at 3-4.
CRA points out that black letter law provides
that an interlocutory appellate ruling cannot resolve
disputed facts in the underlying litigation. “A ruling
on a petition for a writ of mandate involving a
preliminary injunction is not a decision on the merits
and does not operate as the law of the case which
would be binding on the trial court.” Huntington Park
Club Corp. v. City of Los Angeles , (1988) 206
Cal.App.3d 241, 248, n. 5. CRA argues that the
appellate court did not wade into the question of what

14a
facts discovery might reveal about Respondents’
disputed evidence that supported a rational basis for
the Restaurant Closure Order, and the court could not
have determined that the declarations were actually
true. Mot. at 7; Reply at 4, 7-8. The appellate court
was limited sharply by the procedural posture created
by Respondents’ petition and could only answer the
question whether the record supported a preliminary
injunction. Mot. at 8; Reply at 4-5. Indeed, the
Appeal Decision is replete with examples of the
appellate
court’s
uncritical
acceptance
of
Respondents’ declarations that contain conclusions
contradicted by CRA’s experts. Mot. at 9; Reply at 78. CRA concludes that the Appeal Decision did not
decide that CRA could not negate Respondents’
rational basis showing as a matter of law. Mot. at 7;
Reply at 5.
CRA contends that case law establishes that a
party is entitled to offer factual showings rebutting a
government agency’s purported rational basis. See,
e.g., St. Joseph Abbey v. Castille, (5th Cir. 2013) 712
F.3d 215, 223, 226 (plaintiffs may negate a seemingly
plausible basis for a law by adducing evidence of
irrationality and court not required to accept
nonsensical explanations for regulation).
CRA
contends that numerous factual issues remain for the
trial court to resolve, including the conclusions in
Respondents’
declarations
that
COVID-19
transmission is an especially high risk in unmasked
outdoor dining. Mot. at 9; Reply at 7-8. Despite the
Appeal Decision’s acceptance of Respondents’
declarations stating that they considered the risks of
outdoor dining (61 Cal.App.5th at 491), CRA is entitled

15a
to depose Respondents’ health officials to assess the
credibility of their declarations and determine what
evidence, if any, was considered before issuing the
Restaurant Closure Order. Mot. at 10; Reply at 7-8.
While it is true that a “ruling on a petition for
a writ of mandate involving a preliminary injunction
is not a decision on the merits and does not operate as
the law of the case which would be binding on the trial
court” (Huntington Park Club Corp. v. City of Los
Angeles, supra, 206 Cal.App.3d at n.5), this case
concerns the quasi-legislative action of issuance of the
Restaurant Closure Order for which judicial review is
limited. An agency’s quasi-legislative decision is an
abuse of discretion only if it is “arbitrary, capricious,
entirely lacking in evidentiary support, unlawful, or
procedurally unfair.” Kahn v. Los Angeles City
Employees’ Retirement System, (2010) 187
Cal.App.4th 98, 106. Although mandate will not lie
to control the agency’s discretion, it will lie to correct
abuses of discretion. California Public Records
Research, Inc. v. County of Alameda, (2019) 37
Cal.App.5th 800, 806. The court may not substitute
its judgment for that of the agency, and it must
uphold the decision if reasonable minds can differ. Id.
A record is required for traditional mandamus
review of quasi-legislative decisions if the law
requires a hearing as which evidence is presented and
fact-findings made. See SN Sands Corp. v. City and
County of San Francisco, (“SN Sands,” (2008) 167
Cal.App.4th 185, 191 (award of public contract is
quasi-legislative decision for which judicial review is
limited to administrative record); Cypress Security,

16a
Inc. v. City and County of San Francisco, (2010) 184
Cal.App.4th 1003, 1010 (same). If the hearing does
not require the presentation of evidence, the quasilegislative decision is challenged based on
declarations and exhibits. The court cannot disturb
the decision if it is supported by substantial evidence.
SN Sands, supra, 167 Cal.App.4th at 191. Extrarecord evidence is not admissible to contradict
evidence upon which the agency relied in making a
quasi-legislative decision, or to raise a question
regarding the wisdom of that decision. Western
States Petroleum Assn. v. Superior Court, (“Western
States”) (1995) 9 Cal.4th 571, 579. A potential
exception exists for extra-record evidence that
provides background information for the quasilegislative decision, establishes whether the agency
fulfilled its duties in making the decision, or assists
the court in understanding the decision. Id. at 57879.
In this case, it is unclear whether the
Restaurant Closure Order required a Board of
Supervisors hearing at which evidence was
presented, and therefore whether an administrative
record is required. Assuming that no record is
required and that the parties can submit evidence by
declaration, CRA can only present evidence that DPH
did not fulfill its duties in issuing the Order, the
Order is not supported by substantial evidence, or the
Order is arbitrary and capricious. CRA cannot simply
contradict Respondents’ experts or attack their
credibility because to do so would require
impermissible weighing of evidence. For this reason,
CRA’s argument that there are factual disputes about

17a
the credibility of Respondents’ experts is untenable.
Even with such disputes, the Restaurant Closure
Order would still be upheld because it may be based
on rational speculation unsupported by evidence or
empirical data. “[A] legislative choice is not subject to
courtroom factfinding and may be based on rational
speculation unsupported by evidence or empirical
data.” Heller v. Doe by Doe, (1993) 509 U.S. 312, 320.
Contrary to CRA’s argument (Reply at 7-8), the
Appeal Decision forecloses CRA from attacking the
syllogism behind the Restaurant Closure Order as not
supported by substantial evidence or as arbitrary and
capricious. The Appeal Decision concluded that the
County established that it had a plausible basis for
the Order through the statements of Davis,
Gunzenhauser, and Gausche-Hill, all of whom
detailed how and why they reached the conclusion
that the Restaurant Closure Order was necessary. 61
Cal.App.5th at 492. Based on this evidence, the
appellate court expressly stated that “there is no
likelihood the Restauranteurs will prevail on the
merits of their claims” (Id. at 487) and that “[b]ecause
the Restauranteurs failed to satisfy their burden of
demonstrating the [Restaurant Closure] Order is
arbitrary, capricious, or without rational basis, we
conclude they cannot ultimately succeed on the merits
of their claims.” 61 Cal.App.5th at 495. The appellate
court did not simply say that CRA failed to show a
probability of success; it held that there was no
prospect of prevailing. In other words, the appellate
court found that sufficient evidence exists to conclude
as a matter of law that the Restaurant Closure Order

18a
is not arbitrary and capricious. No further evidence
or discovery is necessary on this claim.
In its Ruling, this court imposed a clear
condition that the depositions would not go forward if
the Court of Appeal decision did not uphold the
Restaurant Closure Order as a matter of law. Opp. at
9; Tokoro Decl., Ex. H, p.9. The court explained that
the Court of Appeal decision would function as an
“on/off switch” and if the preliminary injunction was
reversed, there would be no basis to go forward with
the depositions. Opp. at 9-10; Tokoro Decl., Ex. G, pp.
15-16. Contrary to the CRA’s assertions (Reply at 5),
that is exactly what happened. CRA may not take the
depositions based on its mandamus claim.
2. CRA’s Declaratory Relief Claim
CRA asserts that it has a viable declaratory
relief claim because the Appeal Decision’s analysis
was limited to the record, which is incomplete and
insufficient for a determination of the ultimate merits
of the case. Mot. at 10; Reply at 9-10. The CRA is
entitled to discovery to assist it in proceeding with
litigation and disproving the County’s claim that it
had a rational basis for issuing the Restaurant
Closure Order. Mot. at 11-12; Reply at 9-10.
The County claims that the issue is moot. A
claim for declaratory relief becomes moot when some
event has occurred which deprives the controversy of
its life. Ctr. for Local Gov’t Accountability v. City of
San Diego, (2016) 247 Cal.App.4th 1146, 1157. The
County notes that in analogous cases involving

19a
COVID-related restrictions in other contexts, such as
religious activities, courts have found controversies
moot when there was no credible threat of
reinstatement of the applicable restrictions. Opp. at
14-15. The County argues that there is no longer any
live controversy with respect to the closure of outdoor
restaurant dining. Opp. at 14. Restaurants were
reopened for outdoor dining on January 29, 2021,
aligning with the sector re-openings permitted under
the State’s Blueprint for a Safer Economy, which the
County contends without admissible evidence has
been revoked.
This court and the Court of Appeal both stated
the issue was not moot despite the lifting of the
Restaurant Closure Order, based on the reasonable
expectation that restrictions could be re-imposed.
The County disputes that closure of outdoor dining
could reoccur, noting that it eliminated nearly all
COVID-related restrictions on June 15, 2021 and has
not re-imposed any such restrictions, or indicated
that it will, despite a recent increase in infections
caused by the COVID-19 Delta variant. Opp. at 15.
The County’s argument is undermined by facts
subject to common knowledge. It is well known that
the Delta variant is the basis for what the press
describes as a “surge” for which the State, County,
and federal authorities have imposed new
restrictions,
including
extending
eviction
moratoriums, imposing indoor mask requirements
and, most recently, outdoor mask requirements in
large gatherings — e.g., football and baseball games.
Given these continuing and recently increased

20a
restrictions, no reasonable person would conclude
that the County will not re-impose an outdoor dining
restaurant closure in the future. CRA’s claim for
declaratory relief is not moot.
Although not moot, the declaratory relief claim
is subsumed within the mandamus claim.
Declaratory relief is available for a declaration of
rights or duties. CCP §1060. There must be an actual
present controversy over a proper subject. Friends of
the Trails v. Blasius, (2000) 78 Cal.App.4th 810, 831.
Declaratory relief may encompass future and
contingent legal rights. Eye Dog Foundation v. State
Bd. of Guide Dogs for the Blind, (1967) 67 Ca1.2d 536,
541.
A court may adjudicate only a case or
controversy and may not give an advisory opinion.
Selby Realy Co. v. City of San Buenaventura, (1973)
10 Cal.3d 110.
The SAP alleges that an actual controversy
exists between CRA and Respondents in that CRA
contends that Respondents are acting arbitrarily and
capriciously and without legal or evidentiary
foundation by closing restaurants in the County
notwithstanding the evidence demonstrating that
restaurants are not the cause of the spread of COVID19. SAP ¶49. The prayer for this claim seeks a
declaration that the Restaurant Closure Order is
invalid as arbitrary and capricious and/or entirely
lacking in evidentiary support. This claim seeks
adjudication of the parties’ rights and duties with
respect to the Restaurant Closure Order, not existing
or future rights. Declaratory relief may not be used
to seek adjudication of past wrongs or historical

21a
rights. Cardellini v. Casey, (1986) 181 Cal.App.3d
389, 396; Brownfield v. Daniel Freeman Marina
Hospital, (1989) 208 Cal.App.3d 405, 414. The
declaratory relief claim is subsumed within the
mandamus claims.4
E. Conclusion
The motion for an order to enforce depositions
is denied. The court will inquire at hearing whether
(a) it may dismiss the mandamus and declaratory
relief claims against Respondents (SAP’s first three
causes of action) and (b) should transfer the
remaining 42 U.S.C. section 1983 claim to an
independent calendar court.

The court offers no opinion when a declaratory relief claim that
the County is contemplating or has issued a new restaurant
closure order would be ripe. Nor does this ruling affect CRA’s 42
U.S.C. section 1983 claim.
4

22a

Exhibit “B”
SUPERIOR COURT OF CALIFORNIA,
COUNTY OF LOS ANGELES
Civil Division
Central District, Stanley Mosk Courthouse,
Department 85
20STCP03881

August 26, 2021

CALIFORNIA RESTAURANT
ASSOCIATION, INC., A CALIFORNIA
CORPORATION
vs
CALIFORNIA OF LOS ANGELES
DEPARTMENT OF PUBLIC HEALTH A
GOVERNMENTAL ENTITY
Judge: Honorable James C. Chalfant
CSR: C. Cameron, CSR # 10315
Judicial Assistant: J. De Luna
ERM: None
Courtroom Assistant: C. Del Rio
Deputy Sheriff: None

23a
APPEARANCES:
For Petitioner(s): Dennis Sean Ellis (X) ;
Richard A. Schwartz (X)
For Respondent(s): Amnon Zvi Siegel (Video)
NATURE OF PROCEEDINGS: Trial Setting
Conference; Hearing on Motion of Petitioner for Order
to Enforce Deposition Order
The court’s tentative ruling is published to all
parties via posting on the court’s website. The matters
are called for hearing.
After argument of counsel, the court rules in
accordance with its tentative ruling which is filed and
adopted as the final ruling of the court and
incorporated herein by reference.
Summary of the court’s ruling:
Petitioner California Restaurant Association,
Inc. moves for an order enforcing the court’s February
11, 2021 ruling on Defendants’ motion for a protective
order allowing it to take the depositions of Dr.
Barbara Ferrer, Dr. Muntu Davis, Dr. Marianne
Gausche-Hill, and Dr. Jeffrey D. Gunzenhauser.
The court has read and considered the moving
papers and opposition (no reply was filed), and
renders the following decision.
The motion for an order to enforce depositions
is denied.

24a
The court indicates that the Court of Appeal
decision is dispositive of the Restaurant Closure
Order which is what is at issue in the mandamus and
declaratory relief claims.
The court orders the dismissal of the
mandamus and declaratory relief claims against
Respondents (SAP’s first three causes of action) to
occur upon the resolution of the remaining 42 U.S.C.
section 1983 claim by an independent calendar court.
The matter is ordered transferred to
Department One for review and reassignment to an
independent calendar court for resolution of the 42
U.S.C. section 1983 claim.
Petitioner is to give notice.

